LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

October 15, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

DISH NETWORK L.L.C. V. THOMAS H. KRAKAUER, ON BEHALF OF A CLASS OF
PERSONS

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for the Petitioner, on October 15, 2019, I caused service to be made pursuant
to Rule 29 on the following counsel for the Respondents:
RESPONDENTS:
John W. Barrett
Bailey & Glasser LLP
209 Capitol Street
Charleston, WV 25301
(304) 345-6555
jbarrett@baileyglasser.com
This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

